               Office of Inspector General




October 14, 2004

MICHAEL GASPARD
MANAGER, OKLAHOMA DISTRICT

SUBJECT: Audit Report –Self-Service Vending Program – Oklahoma District
         (Report Number DR-AR-05-001)

This is one of a series of audit reports on the Self-Service Vending Program in the
Southwest Area. The report presents the results of our self-initiated audit on the
Self-Service Vending Program in the Oklahoma District (Project Number
04YG024DR002). The information in this district report will be included in a report to
the Southwest Area Vice President.

                                                   Background

The Self-Service Vending Program, implemented in October 1964, is one of the Postal
Service’s major programs. It provides Postal Service customers with a convenient
alternative for purchasing stamps and other basic Postal Service products after
business hours and without the need to stand in line during business hours.

Nationwide, the Postal Service maintains approximately 30,000 vending machines
(27,000 self-service postal centers and 3,000 other types of vending equipment) that
generated over $1.9 billion in revenue during fiscal years (FY) 2001 through 2003.
During FY 2003, the Southwest Area had 3,876 pieces of vending equipment
that generated over $87 million in revenue, of which the Oklahoma District
maintained 14 percent (533) of the total area machines that generated over 10 percent
($8.7 million) of the total area vending revenue. During the first quarter of FY 2004, the
Southwest Area had 3,989 pieces1 of vending equipment that generated over
$23 million in revenue, of which the Oklahoma District maintained 15 percent (5792) of
the total area machines that generated 10 percent ($2.2 million) of the total area
vending revenue.




1
    The Southwest Area had 113 additional vending machines during the first quarter of FY 2004.
2
    The Oklahoma District had 46 additional vending machines during the first quarter of FY 2004.

       1735 N Lynn St.
       Arlington, VA 22209-2020
       (703) 248-2100
       Fax: (703) 248-2256
Self-Service Vending Program –                                                DR-AR-05-001
 Oklahoma District


                              Objective, Scope, and Methodology
The objective of our audit was to determine whether the Self-Service Vending Program
is effectively and efficiently meeting program goals of increasing revenue and reducing
operating costs. Specifically, in this review, we determined whether Self-Service
Vending Program managers have effectively redeployed vending equipment that does
not meet minimum revenue requirements in order to maximize revenue, and
discontinued the use of obsolete vending equipment. We also physically observed a
judgmental sample of 20 vending machines to determine whether the machines were
operational and easily accessible. For the 533 vending machines operating in the
Oklahoma District during FY 2003, 85 were classified as obsolete based on Postal
Service guidance, while the remaining 448 were classified as current equipment. For
the first quarter of FY 2004, 579 vending machines were operating in the Oklahoma
District, of which 97 were classified as obsolete, and the remaining 482 were classified
as current equipment.

During our audit, we visited Postal Service facilities; interviewed managers and
employees; reviewed documentation and applicable policies and procedures; and
analyzed data in the Postal Service’s Vending Equipment Sales and Service System
(VESS) for FY 2003 and the first quarter of FY 2004 to identify obsolete equipment and
equipment that did not meet the minimum revenue requirements.3 Although we relied
on data obtained from VESS, we did not test the validity of the data and controls over
the system.

Audit work associated with the Oklahoma District was conducted from July through
October 2004, in accordance with generally accepted government auditing standards
and included such tests of internal controls as were considered necessary under the
circumstances. We discussed our observations and conclusions with appropriate
management officials and included their comments, where appropriate.

                                         Prior Audit Coverage
The Office of Inspector General (OIG) has issued three reports related to the objective
of this audit.

Self-Service Vending Program - Tennessee District (Report Number DR-AR-04-003,
June 30, 2004), Self-Service Vending Program - Alabama District (Report Number
DR-AR-04-004, June 30, 2004), and Self-Service Vending Program - Atlanta District
(Report Number DR-AR-04-002, July 1, 2004). The reports stated that district officials
could improve their process for redeploying vending equipment that does not meet
minimum revenue requirements. In FY 2003, 54 percent (857 of 1,573) of the vending
machines in the Tennessee, Alabama, and Atlanta Districts did not meet the minimum
revenue requirements and the districts may have missed revenue opportunities of

3
    Obsolete equipment was not included in the minimum revenue analysis.




                                                         2
Self-Service Vending Program –                                                                         DR-AR-05-001
 Oklahoma District


approximately $2.7 to $8.5 million by not redeploying this equipment. Additionally,
these districts continued to use 250 obsolete machines and possibly incurred
maintenance and repair expenses. Management agreed with all recommendations and
the actions taken and planned were responsive to the recommendations.

                                               Audit Results
Opportunities exist for Oklahoma District officials to improve the effectiveness and
efficiency of the Self-Service Vending Program and to meet or exceed program goals of
increasing revenue and reducing operating costs. Specifically, Oklahoma District
officials could increase revenue opportunities by redeploying equipment that does not
meet minimum revenue requirements. Further, Oklahoma District officials could
possibly reduce maintenance and repair costs by discontinuing the use of obsolete
equipment. Additionally, our physical observation of vending machines in the Oklahoma
District indicated that not all of the machines selected for review were operational or
accessible.

Redeployment of Vending Machines

Oklahoma District officials could improve their process for redeploying vending
equipment that does not meet Postal Service’s minimum revenue requirements.
Specifically, during FY 2003, our review of the vending equipment revenue reports
indicated that 75 percent (336 of 448) did not meet the minimum revenue requirements.
Vending equipment sales were approximately $2.4 million, which was significantly
less than the minimum revenue requirement of $5.4 million. As a result, the
Oklahoma District may have missed revenue opportunities of approximately
$977,000 to $3.0 million by not redeploying this equipment.4

Additionally, in the first quarter of FY 2004, our review of the vending equipment
revenue reports indicated that 75 percent (360 of 482) did not meet the minimum
revenue requirements. Vending equipment sales were approximately $559,000, which
was significantly less than the minimum revenue requirement of $1.3 million. As a
result, the Oklahoma District may have missed revenue opportunities of approximately
$750,000 by not redeploying this equipment.

One of the Self-Service Vending Program’s goals is to increase revenue through the
redeployment of equipment. The Postal Service should redeploy equipment that does
not meet minimum revenue requirements to other locations. Postal Service policy,

4
  For each vending machine, we calculated the shortfall in revenue compared to the established minimum for a
particular machine type and referred to this shortfall as “missed revenue opportunities.” The $977,000 represents the
minimum total possible missed revenue opportunities after giving consideration to Postal Service guidance, which
requires district officials to review revenue reports and take appropriate actions if a vending machine’s revenue does
not reach plan in three to six accounting periods. The $3 million represents the maximum total possible missed
revenue opportunities for FY 2003 and is calculated by subtracting actual revenues generated from the total of all
machine minimum revenue requirements.




                                                          3
Self-Service Vending Program –                                                                   DR-AR-05-001
 Oklahoma District


Handbook PO-102, Self-Service Vending Operational and Marketing Program,
Chapter 2, Section 256, May 1999 (updated with Postal Bulletin revisions through
December 25, 2003), establishes the minimum revenue requirements for vending
machines. The district retail office is responsible for evaluating equipment revenue to
find the right location for the right machine. If self-service vending equipment is located
in an area where it is unable to generate enough revenue to meet the minimum
requirement, the equipment must be considered for redeployment. If revenue does not
meet the minimum requirement in three to six accounting periods, the district retail office
should place the equipment on a list for redeployment; notify any office where changes
will be made; prepare a typewritten or computer-generated notice, approved through the
district retail office, to be posted in the lobby informing customers 30 days before
removing the equipment; and complete Postal Service (PS) Form 4805, Maintenance
Work Order, and move the equipment to a better location.

District officials did not initiate redeployment action for the underperforming vending
machines during FY 2003 and the first quarter of FY 2004 because it was not cost
effective since these machines were generating some revenue. Additionally, district
officials were concerned about the potential adverse impact to customer service if the
machines were moved. Previous attempts to redeploy underperforming equipment
were met with resistance from postmasters because the nonavailability of vending
equipment would impact customer service in the locations. However, by not taking
action to redeploy underperforming equipment, the district could miss revenue
opportunities during the remainder of FY 2004.

District officials expressed that they did not have any concerns with the Postal Service’s
methodology used to establish minimum revenue requirement; however, they consider
this criteria as guidance to manage the Self-Service Vending Program. District officials
stated that although vending machines may not be meeting minimum revenue
requirements, they were generating some revenue and were available for customers.

We discussed the results with Oklahoma District officials and they agreed that they
could improve their redeployment process for equipment that does not meet the Postal
Service’s minimum revenue requirements. District officials indicated that plans were
being developed to relocate vending locations based on an analysis of vending
operations and receipt of 25 automated postal centers.5

Recommendation

We recommend the Manager, Oklahoma District, direct the Retail Manager to:

1. Review revenue reports to identify underperforming equipment; notify postmasters of
   vending equipment that generates low revenue; and giving consideration to all


5
 Automated postal centers are a newly developed kiosk that provides convenient 24-hour automated access to
purchase stamps as well as many premium delivery services such as Express and Priority Mail.




                                                       4
Self-Service Vending Program –                                                                   DR-AR-05-001
 Oklahoma District


    feasible alternatives, complete all necessary actions to redeploy underperforming
    equipment as often as possible.

Management’s Comments

Management agreed with our finding and recommendation. The District Manager
stated they can improve removing/relocating low performing machines in smaller
offices. The District Manager instructed the Retail Manager to review the Equipment
Relocation Analysis Report from VESS on a monthly basis to assess the opportunities
and the impact of relocating equipment. In addition, management stated each site will
be reviewed on an individual basis to determine if the equipment needs to be removed
or relocated. The retail manager will notify Managers of Post Office Operations
(MPOOs)/Postmasters of low performing equipment. The MPOOs/Postmaster will be
given the opportunity to respond in writing to the Retail Manager to present a business
case as to why the equipment should not be relocated or removed.

However, management stated disagreement that the district may have missed revenue
opportunities as they have attempted to place their vending machines where the
machines will have the highest traffic potential and that moving the machines would not
guarantee they would produce the minimum revenue. Management’s comments, in
their entirety, are included in the appendix of this report.

Evaluation of Management’s Comments

Management’s actions taken or planned are responsive to the recommendation and
should resolve the issue identified in this finding. Regarding management’s
disagreement that they missed revenue opportunities, we determined that the term
missed revenue opportunities was appropriate as our audit focused on vending revenue
as reported in VESS and as compared to established minimums. The Postal Service
measures the performance of vending operations by considering revenue generated;
accordingly, we believe the term missed revenue opportunities appropriately represents
the revenue-related performance measure within the confines of assessing individual
machines only.

Use of Obsolete Equipment

In FY 2003, Oklahoma District officials continued to use 85 obsolete machines and
possibly incurred maintenance and repair expenses, although Postal Service policy
discontinued the maintenance and repair support for the machines in 2000.6 Our review
of vending equipment revenue reports showed five of the machines met minimum
revenue requirements. Additionally, during the first quarter of FY 2004, our review of


6
 This Maintenance Management Order (MMO) supplements MMO-018-96, June 21, 1996, Discontinuance of
Support for Obsolete Vending Machines. This MMO includes discontinuance of support for recently obsolete models
of vending machines announced in the Material Logistics Bulletin (MLB-PP-00-004), issued on May 18, 2000.




                                                       5
Self-Service Vending Program –                                                                    DR-AR-05-001
 Oklahoma District


vending equipment revenue reports indicated that 97 percent (94 of 97) did not meet
minimum revenue requirements.

District officials stated that they continued to use and maintain the obsolete equipment
because removing the equipment would not be cost effective and because of concerns
regarding the potential adverse impact on customer service since replacement
equipment was not available. As a result, during FY 2003 and the first quarter of
FY 2004, the district possibly incurred maintenance and repair expenses that may have
exceeded the revenue generated by continuing to operate and maintain the obsolete
machines. We were unable to determine the amount of repair and maintenance
expenses associated with the machines because the Postal Service does not capture
the data for each machine.7

Periodically, the Postal Service lists vending equipment as obsolete, meaning that the
equipment has exceeded its expected life cycle and will no longer receive support from
maintenance organizations. All inactive retail vending equipment items must be
reported to the district material management specialist. When retail vending equipment
items are obsolete or listed as excess, the Postal Service may consider them for
disposal action. Parts from obsolete machines may be salvaged and stored for
maintenance or repair of other compatible equipment. In June 2000, Postal Service
policy listed the obsolete vending equipment that should no longer receive support from
maintenance organizations.

By continuing to use and maintain obsolete machines, the district will possibly incur
repair and maintenance costs that may exceed the revenue generated. We recognize
management’s desire to provide customer service; however, because the Postal
Service does not capture repair and maintenance, management has no means of
assessing whether the benefits of operating the obsolete equipment outweigh the costs
to operate it. District officials indicated that plans will be made to replace the obsolete
machines when new automated postal centers are deployed to the district locations.

Recommendation

We recommend the Manager, Oklahoma District, direct the Retail Manager to:

2. Consider all feasible alternatives, and complete all necessary actions to eliminate
   repair and maintenance cost for the obsolete equipment.

Management’s Comments

Management agreed with our finding and recommendation. The District Manager
stated the district has continued to use obsolete machines in FY 2003 and FY 2004.
Seventy-five percent of the obsolete machines are located in small post offices.

7
    We plan to address this issue in a capping report to Postal Service Headquarters officials.




                                                             6
Self-Service Vending Program –                                                 DR-AR-05-001
 Oklahoma District


Postmasters maintain these machines and do not install new parts. However, the
District Manager stated that, effective immediately, the retail manager will be directed to
notify maintenance that obsolete equipment will not be repaired. Although management
does not agree with the financial feasibility of removing all the equipment at one time
the equipment will be removed as it malfunctions and sent to maintenance for proper
disposition.

Evaluation of Management’s Comments

Management’s actions taken or planned are responsive to the recommendation and
should resolve the issue identified in this finding.

Physical Observation of Vending Equipment

Our physical observation of vending machines in the Oklahoma District indicated that
not all of the machines were accessible or operable. Specifically, 35 percent (7 of 20) of
the machines judgmentally selected for review were not accessible or operating
properly in July 2004. Two of the seven machines were not accessible; one machine
was being replaced by a new APC in May 2004 and was redeployed to another location,
and the other machine was not at the location recorded in VESS. District officials
informed the OIG that the latter machine was in another location and the postmaster
responsible for the machine had not updated the PS Form 8130, Vending Equipment
Sales and Service Daily Activity Log, to ensure the information in VESS was accurate
regarding the location of the machine. However, the district subsequently provided
corrected PS Forms 8130 showing the new locations for these two machines.

The remaining five of the seven machines were inoperable in July 2004 during our
physical observation. Two of the five machines had notices posted as being out of
service in July 2004, while the remaining three had no postings. We reviewed
PS Forms 8130 and found that four of the five inoperable machines showed no
downtime for the month of July 2004. District officials stated that the forms did not show
the machines’ downtime because inoperable times were less than one day. However,
officials added that if a machine is inoperable for any length of time, it must be recorded
on the PS Form 8130. By not properly completing PS Forms 8130, Postal Service
managers have no means of ensuring vending machines are operable or in need of
repair, potentially resulting in a loss of revenue.

VESS is a nationwide computerized reporting system for the Self-Service Vending
Program, which is used as a management tool for real-time tracking of vending cost
in relation to sales. Data maintained in the VESS database is generated from
PS Form 8130, Vending Equipment Sales and Service Daily Activity Log.8 Each
employee associated with self-service vending equipment must complete a
PS Form 8130 detailing the equipment serviced and maintained during each month.

8
    We plan to conduct an audit on the accuracy of data in VESS.




                                                          7
Self-Service Vending Program –                                                  DR-AR-05-001
 Oklahoma District



Recommendation

We recommend the Manager, Oklahoma District, direct the Retail Manager to:

3. Require employees to accurately complete PS Form 8130, Vending Equipment
   Sales and Service Daily Activity Log, for the four machines, detailing the inoperable
   status for each machine, and consider retraining employees to accurately complete
   the forms.

Management’s Comments

Management agreed with our finding and recommendation. The District Manager
stated that effective immediately the retail manager will send information to the field
regarding the proper completion and importance of the PS Form 8130.

Evaluation of Management’s Comments

Management’s actions taken or planned are responsive to the recommendation and
should resolve the issue identified in this finding.

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action(s) are completed. These recommendations should not be closed in
the follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during our review.
If you have any questions or need additional information, please contact Debra D.
Pettitt, Director, Delivery and Retail, or me at (703) 248-2300.


/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachment

cc: John A. Rapp
    Larry Flener
    Lee Hawkins
    Pam Gleason
    Steven R. Phelps




                                             8
Self-Service Vending Program –                           DR-AR-05-001
 Oklahoma District


                       APPENDIX. MANAGEMENT’S COMMENTS




                                    9
Self-Service Vending Program –        DR-AR-05-001
 Oklahoma District




                                 10
Self-Service Vending Program –        DR-AR-05-001
 Oklahoma District




                                 11
